FILED
NOV Q 4 2019

&

OFFICE OF THE CLERK
SUPREME COURT. U.S.

In the

Supreme Court of the United States

Anthony J. Lucero,
Petitioner,
vs.
James R. Koncilja; Koncilja & Koncilja, P.C.,
Respondents.
On Petition for Writ of Certiorari to
The United States Court of Appeals
for the Tenth Circuit

PETITION FOR WRIT OF CERTIORARI

Anthony J. Lucero
Petitioner Pro Se
2226 Harvey Place
Pueblo, CO 81006
Tel. (719) 543-7367
E-Mail anthonypuebl@aol.com

RECEIVED
NOV - 8 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
Pursuant to Rule 14 of
Supreme Court of the United States
Rules effective July 1, 2019
Preface: Petitioner reiterated his multiple complaints
against Respondents throughout each of these court cases,
as referenced below.
1. As former attorneys for Petitioner Lucero, did
Respondents Konciljas violate Petitioner’s U.S. 14th
Amendment due process rights by not investigating Plain
Petitioner’s severe, near-death work-related multiple
injuries before filing a complaint in district court - which
complaint included all parties except for the two parties
that were the ones culpable for Petitioner’s multiple
injuries?
2. Did Respondents further violate Petitioner’s U.S. 14th
Amendment rights to due process by fading to proceed with
any normal legal action at all such that the Pueblo District
Court ruled against (Petitioner) Lucero with a Notice of
Dismissal for Failure to Prosecute - which laxness by
Respondent attorney Koncilja closed the legal doors on
Petitioner’s efforts to seek redress for his multiple lifethreatening work injuries?
3. Was Petitioner prejudiced and his due process rights
repeatedly violated by Colorado state courts and U.S.
Federal courts when those courts did not legally notice
that Petitioner had filed a timely - completed in all ways Motion for Default Judgment against Respondents, when
Respondents were forty-three (43) days late in filing an
initial responsive pleading to Petitioner’s Amended
Complaint?

11

4. Does claim preclusion and/or res judicata apply to this
case at bar, which has never been at issue before or after
Petitioner Lucero had hired, then removed Denver attorney
Paul Gordon from the case against Konciljas - since Lucero
himself, proceeding pro se, has filed different, expanded
complaints against Defendants?
5. Why do higher courts not concur that Pueblo District
Court Judge Crockenberg was extremely biased when he
ruled 26 (twenty-six) times against Petitioner Lucero and in
favor of Respondents Konciljas when, e.g., Respondents
were 43 days late in answering Lucero’s Complaint against
Konciljas and Petitioner therefore had filed a complete
Motion for Default Judgment, but Judge Crockenberg ruled
that Respondents’ 43 days lateness in answering was not
late (with absolutely no excusable neglect proffered by
Konciljas), also e.g., when Judge Crockenberg denied
Petitioner extra time with three rulings (twice before
expiration of 60 day limit!) to file a Certificate of Review
against Respondents Konciljas?
6. Was it not clear that there was additional judicial bias by
Federal Magistrate Judge Tafoya against Petitioner when,
e.g., the judge failed repeatedly to rule for Petitioner, e.g.,
a.) pursuant to Civ. Procedure 4(d)(2) Motion to Recover
Service Expenses against Respondents, never understood
that it’s clearly the absolute responsibility of the Federal
court to order Defendants to pay Petitioner service
expenses, b.) ruled for Defendants’ overtly frivolous red
herring motion to stay a ruhng on Petitioner’s above motion
for recovery until Defendants’ Fed. R. Civ. P. 12(b)(1)
motion was decided, c.) actually illegally aided Respondents
Konciljas by changing, sua sponte, their 12(b)(1) motion to a
more appropriate 12(b)(6) motion, and most significantly d.)
failed to recognize, receive and rule on Petitioner’s

Ill

dispositive Plaintiff's Motion for Judgment on the
Pleadings, Pursuant to Fed. R. Civ. P. 12(c)?
7. Although there is no mention at all of the term State
Actor or its synonyms in any of Petitioner’s state or federal
law books, e.g., not in Hess’ Colorado Handbook on Civil
Litigation, nor Federal Court of Appeals Manual, Sixth
Edition, nor Black s Law Dictionary, Abridged 10th Ed., can
Petitioner be held legally responsible for not discussing and
amending his briefs on that State Actor topic in his motions
until after U.S. Assistant attorney Pestal [in Lucero v. U.S.
(V.A.)] referenced the State Actor term in court and Federal
Magistrate Judge allowed Petitioner at that time to amend
his motions - since from the beginning Petitioner Lucero
had described the state favoritism and complicity with
Defendants as state actions?
8. Pursuant to the Federal Rules of Civil Procedure, Rule 15
Amended and Supplemental Pleadings, and with
permission of Magistrate Judge, could not Petitioner rightly
amend his pleadings to include the blatant judicial bias of
Colorado Judge Crockenberg and Magistrate Judge Tafoya
toward Petitioner?
9. Were not all of Plaintiffs rulings based on procedural
matters and never decided on the merits, since his injuries
in fact from 2006 have never been tried?

IV

LIST OF PARTIES
Rule 14 (l)(b)(i)
The case caption contains the list of all parties in this case
at hand.

CORPORATE DISCLOSURE
Rule 14(l)(b)(ii): No Corporate disclosure is necessary.

Rule 14(l)(b)(iii): List of all Proceedings in state and
federal trial and appellate courts, including
proceedings in this Court, that are directly related to
the case in this Court.
Anthony Lucero v. Kone, Inc., Strobel Construction
Unlimited, Inc., Sedlak Electric Company, Heating and
Plumbing Engineers, Inc. and John Doe Construction 1-5,
2008CV1751, Pueblo County District Court. No judgment
entered as change of venue to El Paso County Dist. Ct.
(Attorney James R.Koncilja representing Anthony Lucero.)
Lucero v. Kone, Inc., Strobel Construction, Sedlak Electric,
Heating and Plumbing, and TRG Construction, John Doe
Construction 1-5, Defendants. 2010CV4, El Paso County
District Court. Judgment entered June 14, 2010. (Attorney
James R.Koncilja representing Anthony Lucero.)
Anthony Lucero v. James Koncilja; and Koncilja and
Koncilja, P.C., 2011CV839, Judgment entered 6 August
2012. (Attorney Paul Gordon representing Anthony
Lucero.)
Anthony Lucero v. James R. Koncilja; and Koncilja and
Koncilja, PC., 12CA1914, Judgment entered 11 July 2013.
(Attorney Paul Gordon representing Anthony Lucero.)
Anthony Lucero v. James R. Koncilja; and Koncilja and___
Koncilja, P.C., 2013SC675; Judgment entered 28April 2014.
[Case never reached point of being “at issue”.]
(Anthony Lucero, pro se).
Anthony Lucero v. James Koncilja; and Koncilja and
Koncilja, 2013CV254; Pueblo County District Court
Judgment entered 2 May 2014. Lucero filed C.R.C.P.
60(a)(b)(l)(2)(3)(5). Judgment entered 5 November 2014.
(Anthony Lucero, pro se).

VI

Anthony Lucero v. James R. Koncilja; and Koncilja and
Koncilja, P.C., 2014CA2489. Judgment entered 25
February 2016. Petition for Rehearing. Judgment entered
29 April 2016.
Anthony Lucero v. James R. Koncilja; and Koncilja and
Koncilja, P.C., 2016SC336; Judgment entered
22August2016; Petition for Rehearing. Judgment entered,
26Sepember2016, Renewed Petition for Rehearing,
Judgment entered 13October2016.
Anthony J. Lucero v. James R. Koncilja; and Koncilja and
Koncilja, P.C., D.C. No. 1:17-CV-01374. Judgment entered
September 6, 2018.
Anthony J. Lucero v. James R. Koncilja; and Koncilja and
Koncilja, P.C., U.S. Ct. of Appeals for the Tenth Circuit.
Judgment entered August 6, 2019.
Anthony J. Lucero v. James R. Koncilja; and Koncilja and
Koncilja, P.C. Filed Petition for Writ of Certiorari with
Supreme Court of the United States: postmarked on
November 4, 2019, received by Clerk of Court on November
8, 2019. Was given 60 days from Clerk’s letter, dated
November 13, 2019, to revise Petition for Writ of Certiorari
and refile. Lucero’s petition is postmarked and mailed on
Monday, January 13, 2020.

Vll

TABLE OF CONTENTS
Questions Presented........................................................... i. ii. iii
List of Parties ....................................................................

IV

Corporate Disclosure...........................................................

,iv

List of all proceedings directly related to this case at
bar in state, federal trial and appellate courts,
including the US Supreme Court................................. v, vi
Table of Contents.............................................................

Vll

Cited Authorities..............................................................

vn

Appendix.................................................................

11

Basis for Jurisdiction......................................................

vn

Constitutional Provision..................................................

Vll

Statement of the Case.....................................................

1

Argument for Allowance of the Writ............................

5

Conclusion
A. Decided August 6, 2019.
B. United States District Court, for the District of Colorado,
Decided on September 6, 2018.
CITED AUTHORITIES &
CONSTITUIONAL PROVISION
United States Constitution
14th Amendment, Due process of law clause.
JURISDICTION
The U.S. Court of Appeals entered its final decision on
August 6, 2019. This petition has been filed within 90 days; the
Clerk of the U.S. Supreme Court added 60 days to that date.

1
STATEMENT OF THE CASE
This is a long-standing legal malpractice case where
State Actor Respondent Konciljas, as well as the numerous
courts that heard my case, all denied my 14th Amendment
to the Constitution.
This case initially arose from Petitioner’s near-death
work-related accident that occurred on November 18, 2006,
at the Wyndham Hotel & Resort in Colorado Springs.
Working as a hotel maintenance engineer, Petitioner
Lucero, fell about 18 feet into an unguarded, unmarked
elevator shaft, landing at about 34 m.p.h. onto the steel
apparatus on top of that elevator one floor below because of
hotel safety laxness and contractor negligence in creating
that dangerous situation. There is investigative videos and
medical evidence from the hospital, doctors, insurancehired investigators and nurses that prove the large extent
of his injuries, including internal organs, knees, wrists,
head, ears, etc.
Petitioner Lucero hired Respondent James Koncilja
and his firm to file a Workers’ Compensation claim and
bring a civil lawsuit against Wyndham Hotel. However,
Respondent failed to do or have done any physical
investigation of the accident scene, nor discover that
Wyndham had been doing major remodeling work with
multiple contractors without obtaining any permits. Nor
did Respondent do any interrogatories, depositions of the
workers or the companies responsible for Petitioner’s
injuries. He sued the wrong companies and failed to
respond to those who were wrongfully sued. Consequently,
Lucero’s case was dismissed because of Respondents’ failure
to prosecute. At the same time, Respondent had been acting
as my attorney in my Worker’s Compensation case.
After retrieving all my legal files from Respondent,
Petitioner hired attorney Paul Gordon to bring a civil action

2

against Respondent Koncilja. Gordon started a civil action
just on the basis of the documents that Lucero dropped off
at his office a few days earlier. Like Respondent Koncilja,
Gordon did not interview (or even meet) Lucero about the
circumstances of the accident; he also failed to do any
investigative work, no interrogatories, no depositions, and
failed to file or mention to Lucero that a certificate of review
is required in a legal malpractice case. Because of Gordon’s
legal malpractice, Lucero’s case was also ultimately
dismissed.
After obtaining all my legal files from Gordon, I
discovered in those files on August 13, 2012, that in my
Workers’ Compensation case Respondent Koncilja had
created and filed fraudulent medical documents had
seriously harmed me financially, physically, and
emotionally.
The evidence of Respondents having created and had
filed fraudulent medical documents that hurt me very much
over a period of years - was the impetus for my fifing, pro
se, a new civil action against Respondent Koncilja. In
attorney Gordon’s action against Respondents, none of the
claims were ever adjudicated; in fact, the case had never
been “at issue.” So, I filed a lawsuit against attorney
Gordon and another lawsuit against Respondents Konciljas
with some of the non-adjudicated issues plus many more
that had never been tried. In fact, the Summons and
Complaint that was (finally and officially) served on
Respondent Koncilja by a deputy Sheriff on December 10,
2014, was not and is not now vulnerable to Claim
Preclusion. If any of the court or Court Judges actually
looked at the old and new complaints, they would see that
complaint issues #12 through #18 are entirely new,
while others were changed or deleted entirely - but never
adjudicated, nor was it possible to previously adjudicate
those. Why? Because the previous case was dismissed on

3

procedural grounds, not substantive reasons, as well as the
facts that the case(s) were never at issue.
This Court may have no idea how difficult it is for
someone to find a highly qualified attorney to study all the
evidence and court filings so as to be able to stand out and
write a certificate of review for not just a pro se litigant, but
even a greater challenge if the last name is “Koncilja.”
However, if you’ve read any of my motions, you know that I
was able to obtain a certificate of review from a very
successful attorney who had over 30 years of civil case
experience. I did file that certificate in my case against
attorney Paul Gordon, and it passed an in camera review
with District Court Judge David Crockenberg. About the
same time I filed my malpractice case against Gordon, I
also filed my case against Respondent Konciljas.
I had to file when I did because of time bars, and I
didn’t find the above referenced expert attorney who could
or would issue a certificate until January 2015, and didn’t
file it with Judge Crockenberg until February 7, 2015.
Upon Gordon’s attorney’s motion, Judge Crockenberg did
an in camera review of the attorney and the certificate
shortly thereafter.
That’s why I twice motioned Judge Crockenberg for
additional time for filing a certificate of review in
Respondent Koncilja’s case. My motions were both done
before the 60-day time limit. If you count the number of
times I used the phrase abuse of discretion in reference to
Judge Crockenberg’s actions in my C.R.C.P. 60(b) motion
or inactions, you would find that it occurred about 19-26
times.
Crockenberg denied all three of my motions for
extension of time to file a certificate of review. Why, since
everyone knows that extensions of time are so readily
available? Stephen Hess, author of the Colorado Handbook
on Civil Litigation wrote that extensions of time are so

4
readily granted that some attorneys ask on the last day and it’s granted. I waited months and the court never
granted it to me. I found a respected attorney with 30
years’ experience to write a certificate of review against
Paul Gordon and then Respondent, but the attorney
needed extra time to research and write another for
Respondents Konciljasl He’s a successful attorney who
needed time to finish a trial, read my documents about
Respondents Koncilja, and then draw his conclusions about
Respondent’s legal malpractice to write a certificate of
review. Respondent Koncilja asked for a 25-day extension of
time to file an answer my thoroughly written Motion for
Default Judgment and four davs later Judge Crockenberg
granted it. Did Respondent respond to my motion for
default judgment? No! Respondents argued for claim
preclusion and no certificate of review with no authority
proffered, and wrote that my motion for default judgment
was “harsh”? Dare I say it? Crockenberg was biased and
repeatedly abused his judicial discretion to sabotage
every step of my case against Respondent Koncilja.
Crockenberg knew I would be successful in my litigation
against Koncilja if I were allowed even two weeks’
additional time.
Respondents Konciljas were obviously “State
Actors” because of the intimacy with which the judges
ruled in favor of whatever Respondents wished. Did I
actually see them shake hands on “sweetheart deals”? No,
but by the logic of inductive and even deductive
reasoning, Respondents were indeed state actors.
Retiring Judge Reyes’ decision of November 5, 2014,
was similarly an abuse of that court’s discretion.

5
ARGUMENT FOR ALLOWANCE OF THE WRIT
V. ARGUMENT
Did the district court abuse its discretion deliberately
and persistently such that Petitioner Lucero was clearly
deprived of his 14th Amendment due process rights, as
described in the Colorado and United States Constitution,
and related case law?
Appellate review of the denial of a C.R.C.P. 60(b)
motion is limited to whether the trial court abused its
discretion. Front Range Partners v. Hyland Hills
Metropolitan Park & Recreation Dist., 706 P.2d 1279 (Colo.
1985). A trial court abuses its discretion if its
decision is manifestly arbitrary, unreasonable, or unfair.
See Colorado National Bank v. Friedman, 846 P.2d 159
(Colo. 1993).
If this Court were to review Petitioner’s C.R.C.P.
60(b) motion within the record on appeal, you would see
that Petitioner refers to abuse of discretion by the court
on nineteen occasions. The record on appeal page
numbers are in brackets: starting with Page numbers: 4
(3X) [404], 5-7 [405 - 407], 9 at [409], 11 [411], 15-16 [415
- 416], and page 19 [419]. For example, on page [405] of
the Motion for Relief from Order Granting Defendant’s
Motion to Dismiss, the phrase, “abuse of discretion” is
within that in the last paragraph, and on [409] in the
section entitled Court Bias and Abuse of Discretion. The
Judges Crockenberg and Judge Reyes judgments are void
because they violated the due process of law and abused
their discretion. This should have been recognized by State
and Federal Courts.
When Judge Victor Reyes wrote his succinct Order,
just a few words, one of the few words was “Denied.” Judge

6

Reyes had been a criminal judge, but Judge Crockenberg
and Reyes had recently switched courts. Reyes had worked
as a criminal judge for many years and had worked with
Joe Koncilja on a daily basis. When Judge Reyes wrote his
quite short order, he was only a few weeks from retiring.
Reyes offered no “findings of fact and conclusions of law” in
Lucero’s case against State Actors Jim Koncilja and
Koncilja & Koncilja, P.C. I am not a mind-reader, so I
don’t know what was in Judge Reyes’ heart, but I do believe
he did not review Petitioner Lucero’s Rule 60(b) motion
very much - for many reasons, including, perhaps even for
the reason that he gave, writing that the remedy “was to
file a Notice to Appeal.” It takes so long to proceed through
the higher courts, so Petitioner tried to have, wanted to
have rulings made at the trial court level.
As for the Judge Crockenberg court, yes it’s patently
obvious that he did abuse the discretionary power of the
court on numerous occasion.
Was the district court correct in denying Petitioner’s
Motion for Default Judgment when Petitioner dutifully
conferred with Respondent Koncilja who then rushed to file
an Answer, of sorts, on the same day that Petitioner filed
his Motion for Default Judgment, i.e., 62 days after
service on Respondent of the Summons and Complaint?
On February 10, 2014, Petitioner filed Motions for
Default Judgment pursuant to C.R.C.P. 55(b), §§ 1-14, and
for the Granting of Petitioner’s Claims for Relief Pursuant
to C.R.C.P. 8(d) & C.R.S. 13-63-101 (2013)" with requisite
affidavits and evidence submissions.
Respondents did not file any motion for enlargement
of time to file an Answer brief. Defendants filed an Answer
on February 10, 2014, on the same dav that Plaintiff filed
his Motion for Default Judgment... and after Plaintiff
called Defendants to fulfill his duty to confer. Defendants

7
did not, and have not, ever called Plaintiff to confer
regarding that or any other motion!
Respondent’s Answer was filed on February 10, 2014,
62 days after being effectively served with Plaintiffs Alias
Summons on December 10, 2013. It is a fact that
Defendants’ Answer proffered no excusable neglect for late
filing.
C.R.C.P. Rule 12(a) is very clear: “A defendant shall
file his answer or other response within 21 days after
service of the summons and complaint on him.” The word
shall, as used in Colorado rules and statutes, and certainly
in this case, is not permissive, but rather mandatory or
obligatory.1 It has long been upheld in Colorado that the
word shall in common usage is equated with must or will.2
One day late :Default judgment for filing: AA
Construction Company v. Joseph B. Gould, 470 P.2d
916 (Colo. App. 1970).
“Right to file an answer brief is lost where no
request for extension of time is made within the time
1 There is a presumption that the word "shall", when used in a
statute, is mandatory. Williams Natural Gas Co. v. Mesa
Operating Limited P'ship, 778 P.2d 309 (Colo. App. 1989);
Pearson v. District Court, 18th Jud. Dist., 924 P.2d 512 (Colo.
1996).
2 It is a well settled rule of statutory construction that all words
and phrases used in a statute shall be understood and construed
according to the approved and common usage of the language
and that some meaning shall be given to every word used.
Thomas v. City of Grand Junction, 13 Colo. App. 80, 56 P. 665
(1889); People v. J.J.H., 17 P.3d 159 (Colo. 2001).

8

limit the brief was due, except upon a showing that
failure to act was the result of excusable neglect.” 3
District Court is without discretionary power
to deny a motion for default judgment where
opposing party ... fails to comply ...within a specified
time ... fails to establish that such failure was a
result of excusable neglect. 4
“The trial court erred in setting aside the default
judgment...” because the “failure to timely respond
because of his own carelessness and negligence did
not constitute excusable neglect.” Goodman Assoc.,
LLC v.WPMtn. Props., LLC, 222 P.3d 310 (Colo.
2010).
Order of default judgment affirmed by Colorado
Court of Appeals where Defendant was 11 days late
in filing an answer and did not assert an
excusable neglect.5 In this instant case,
Respondents were not 11 but 62 days late and had no
excusable neglect.
Did the State and Federal Appellate Court judges
violate the due process rights of Petitioner when they made
numerous statements that were quite contrary to the record
on appeal, and when they never referenced any document
or evidence on that record or suggested any evidence to
justify their statements while proffering case laws that
were unfailingly not on-point with this case at bar?

3 Fraka v. Malernee, 129 Colo. 87, 267 P.2d 651 (1954)
4 Sauer v. Heckers, 34 Colo. App 217, 524 P.2d 1387 (1974)
5 Terri Dunton v. Whitewater West Recreation Ltd, 942 P.2d
1348 (Colo. App. 1997).

9
The Court of Appeals did not give any references as
to where their sources of information could be found. Many
of the statements they made were incorrect, truly incorrect;
“riddled with factual errors.” If they were to read the
documents in the record on appeal, their statements would
be more accurate.
The factual errors are too numerous to mention in
this limited space, but, e.g., it is a part of the exhibits that
Respondent Koncilja failed to respond to court orders, did
not file responsive briefs, and without any discovery
whatsoever, the firm did not prepare Lucero’s case for trial.
It is a false statement, a factual error, to write that
Lucero’s pro se lawsuit advanced the same complaints as
Gordon’s. If that Court were to compare the complaints, it
would be obvious that Lucero’s Complaints against
Koncilja, #12 - #18 were entirely new, and there are many
other changes. None of the other complaints had ever been
adjudicated. Gordon lost Lucero’s case on procedural
grounds, e.g., for never having told Lucero - who was
ignorant of the law at that time — that a certificate of review
would be necessary. The only thing that precluded Lucero
from filing a certificate in his pro se case against Koncilja
was the need for the expert attorney to have several weeks
to digest the documents - and finish up a trial — to write a
certificate for Koncilja. Judge Crockenberg absolutely knew
from Lucero’s other recent certificate that Lucero was quite
capable of filing one against Koncilja.
Re: the Appellate Court case submissions: I print out
all the cases and read them, not just the Westlaw or LexisNexis annotations since they frequently do not tell the
whole story. An example of all the Court’s inappropriate
case law submissions: Negron v. Golder, 111 P. 3d 538
(2005): all the issues had been decided against Negron in
the federal case. Therefore, Negron was subject to
Collateral Estoppel. Not true in Lucero’s case: new
complaints and others never adjudicated.

10
Canton Oil v. Dist. Court, 731 P.2d 687 (1987) had to
do with a juror who wanted to save those whom she
thought were Jews. What a strange case! It had to do with
abuse by a juror, and yes it did necessitate a retrial, but
absolutely immaterial to Lucero’s case at bar.
With the Appellate Court’s submission of E.B. Jones
Const, v. City & County of Denver, 717 P.2d 1009 (CA 1986),
the judgement was void because of due process of law
violations. The issue was decided against Denver because
they had failed to preserve the issues.
Did Petitioner correctly fulfill the requisite criteria
for successfully filing a C.R.C.P. 60 (b) motion? Yes, several
of the Rule 60 sections do apply to this case, and it was
necessary to bring these matters first to the district court’s
attention, since it takes “forever” to wade through the
higher courts. I erroneously believed that the trial court
would be fair. What is quite notable is that is patent that
my due process rights were repeatedly violated. My
authority is the United States Constitution, the Bill of
Rights, the Constitution of the State of Colorado, Article II,
Bill of Rights, Section 25: Due Process of law.

